APPENDIX A

/

✓

(i ot y)

Case: 18-15277, 04/21/2020, ID: 11666698, DktEntry: 39-1, Page 1 of 5

NOT FOR PUBLICATION

FILED

UNITED STATES COURT OF APPEALS

APR 21 2020

FOR THE NINTH CIRCUIT
RONALD DEMETRIUS THOMAS,
Petitioner-Appellant,

No.

MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

18-15277

D.C.No. 3:15-cv-05783-JD

v.

MEMORANDUM*
WILLIAM MUNIZ, Warden,
Respondent-Appellee.

Appeal from the United States District Court
for the Northern District of California
James Donato, District Judge, Presiding
Submitted April 15, 2020**
San Francisco, California
Before: BERZON and IKUTA, Circuit Judges, and LEMELLE,
Judge.

Senior District

Petitioner Ronald Demetrius Thomas was convicted at jury trial for

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
The panel unanimously concludes this case is suitable for decision
without oral argument. See Fed. R. App. P. 34(a)(2).
***

The Honorable Ivan L.R. Lemelle, Senior United States District Judge
for the Eastern District of Louisiana, sitting by designation.

(2 ot y)
Case: 18-15277, 04/21/2020, ID: 11666698, DktEntry: 39-1, Page 2 of 5

committing second-degree murder. He was sentenced to prison for 40 years to life.
Prior to sentencing, the trial court denied Thomas’ motion for new trial based on
ineffectiveness of counsel. In subsequent appeals, the California Court of Appeal
(CCA) and the California Supreme Court rejected Thomas’ claims that trial counsel
rendered ineffective assistance. This appeal stems from the district court’s denial of
petitioner’s motion for habeas corpus relief under 28 U.S.C. § 2254.
Petitioner argues the CCA applied the wrong standard of review to determine
whether trial counsel’s conduct prejudiced petitioner. However, the state appellate
court referenced the correct standards under Strickland v. Washington, 466 U.S. 668
(1984). The Supreme Court has made it clear that we review the state court’s
ineffective assistance of counsel determination deferentially under the Antiterrorism
and Effective Death Penalty Act of 1996 (“AEDPA”). Woodford v. Visciotti, 537
U.S. 19, 27 (2002). Thus, we review the district court’s decision to grant or deny
habeas relief de novo, and the state court opinion or decision is viewed pursuant to
a highly deferential standard that gives the state court the “benefit of the doubt.” Id.
at 24. Federal habeas relief is available if the state court’s ruling was “contrary to,
or involved an unreasonable application of,” Supreme Court law that was “clearly
established” at the time the state court adjudicated the claim on the merits. 28 U.S.C.
§ 2254(d)(1); Greene v. Fisher, 565 U.S. 34, 38 (2011).

2

(3 or y)
Case: 18-15277, 04/21/2020, ID: 11666698, DktEntry: 39-1, Page 3 of 5

Petitioner contends that the CCA erred when it failed to find ineffective
assistance and Strickland prejudice from trial counsel’s opening statements.1 The
CCA reasoned that an attorney may have a “valid tactical reason for changing
strategy during trial” and concluded that it was not necessary to determine whether
counsel’s actions “fell beyond the range of reasonable trial tactics because any error
in making the opening statement was harmless.” The court found ample evidence
to establish petitioner’s guilt, such that a different outcome would not have resulted
absent counsel’s error. Specifically, the CCA called attention to the fact that
petitioner had been identified by a witness who knew and maintained prior contact
with him, Z.T., and that her testimony was credible and corroborated by P.L., another
witness who previously met petitioner with Z.T. Further, cell-phone records placed
petitioner within the same area of the crime on the date and time in question and
established that petitioner called Z.T., one of the eye witnesses, during that same
time. The lower courts found no promise of an alibi was made and, thusly, no
prejudice.

Cf Saesee v. McDonald, 725 F.3d 1045, 1049-50 (9th Cir. 2013).

Contrary to petitioner’s belief, the CCA opinion sufficiently delved into federal

1 Thomas’ counsel told the jury, “[The prosecutors] have to prove to you that
[petitioner] was present at the scene, not in or about the area of the scene. . . That's
not going to pan out in this evidence . . . [T]he prosecution will not be able to show
that it was [petitioner] because he was elsewhere. He was not at the scene of the
crime. That's what the evidence will show." People v. Thomas, 2014 WL 3366567,
at *5 (Cal. Ct. App. July 10, 2014).
3

(4 or y)
Case: 18-15277, 04/21/2020, ID: 11666698, DktEntry: 39-1, Page4of5

precedent regarding prejudice. Its decision was not objectively unreasonable or
contrary to law. The cases cited by petitioner are unpersuasive when scrutinized
against the facts of this case.
Petitioner also argues trial counsel’s decision to call a character witness
prejudiced him by bringing out his prior bad acts upon cross-examination by the
prosecution. The state courts characterized that decision as tactical, and observed
that the witness “humanized” petitioner. The trial court stated positive things
resulted from the decision and the testimony “indicated] that [petitioner] was
always respectful, and that he was a good kid, [and that] he was mild mannered.”
The CCA observed that the fact that “the jury was instructed the attorneys’ remarks
during opening statement and closing argument were not evidence” militated in
favor of finding the decision to place the character witness on the stand not
ineffective assistance of counsel. We do not fault the district court’s observation
that without the character witness testimony, it is feasible that the jury would have
elected to find petitioner guilty of the higher charge of first-degree murder, rather
than the lesser offense of second-degree murder. Moreover, the state court
reasonably determined that even if trial counsel’s decision was deficient, it did not
result in prejudice to petitioner because of the overwhelming evidence condemning
him.

4

(b ot y)

Case: 18-15277, 04/21/2020, ID: 11666698, DktEntry: 39-1, Page 5 of 5

The standard for granting habeas relief for ineffective assistance of counsel is
not whether trial counsel’s actions were reasonable, rather it is “whether there is any
reasonable argument that counsel satisfied Strickland’s deferential standard.”
Harrington v. Richter, 562 U.S. 86, 105 (2011). The state courts’ rulings are
reasonable applications of controlling precedent.
AFFIRMED.

5

Case 3:15-cv-05783-JD Document 18

Filed 01/16/18 Page 1 of 13

1
2
3

4

UNITED STATES DISTRICT COURT

5

NORTHERN DISTRICT OF CALIFORNIA

6
7

RONALD DEMETRIUS THOMAS,
. Petitioner,

8
9
10
11

<*
3 I

12

6£

13

Case No. 15-cv-05783-ir>

V.

WILLIAM MUNIZ,
Respondent.

Ronald Thomas, a pro se state prisoner, has brought a habeas petition pursuant to 28

*.«3

14

5C/5 ts

U.S.C. § 2254. The Court ordered respondent to show
cause why the writ should not be granted,

•E

15

|Q

16

Respondent filed an answer and a memorandum of points and authorities i
in support of it, and
lodged exhibits with the Court. Thomas filed a reply. The petition is denied.

■L <+t*> o

£ tS
. -a E

£ £

17

2

18

= ti
D o

BACKGROUND
A jury found Thomas guilty of second degree murder with use of a firearm. People v.

19

Thomas‘ No- A137389, 2014 WL 3366567, a, •, (Cal. Q. App. July ,0. 2014). He was sentenced

20

to prison for 40 years to life. Id at *3. On Jttly 10, 2014, the California Court of Appeal affirmed

21

the judgment. Id a, *1. The California Supreme Court denied Thomas’ petition for review.

22

Docket No. 10 at 24-47.

23

The California Court of Appeal summarized the facts as follows:

26

Alvin aBurns
Thp
i
was fatally shot on the night of November 20, 2009
The Alameda County District Attorney filed an information
chargmg appellant with murder (§ 187) and alleging he had
personally and intentionally discharged a firearm andcaused great
eathH(§ 22022'33’ subd. (d)), had personally^

27

S

28

througAthe^estimony of two eyewimesse's, Z.T^nd'p'.L.11^ ^r’mar’^
FN.2

24
25

? WiS (bU)bdi2022.5a"suhbdd

Case 3:15-cv-05783-JD Document 18

Filed 01/16/18 Page 2 of 13

1
2
3
4

FN. 2 P.L. was declared unavailable
as a witness and her
preliminary hearing testimony was read to the jury. (Evid.
Code, § 1291.)

5
6
7
8
9
10
11
*

12

Is

a i 13

igni ana L. t saw him a few times after that. Appellant and 7 T
spoke on the phone “probably every other day.”
appellani;i8ZT0fa^Vp'1|ber 20' 2°?9^ ab.°“‘ a mon,h after
Bn™
Aft
d P-L- Were celebrat,ng the birthday of Alvin
urns. After going to a McDonald’s restaurant and dropping
? h.IS home’ Burns and the girls decided toPmee!
the Yn m nh°- !Ved at 88th Street and MacArthur Boulevard near
CeH» rnAt the time’ Tielee was Z-T’s boyfriend
P L rkl'ing
tBUmS W3S driving hi$ Honda seda”> with
r.L. riding in the front passenger seat, and Z.T in the back
passenger seat.
• 1 Lne DacK
Bums parked the car near Tielee’s apartment building with the

Iin 5o 14
? 3
CO
B «
£ 5

15
16

■o E
c tS
D o

Z

17

wean„gag„lT£,“„ histeetli,

tnTs& ™

18*
19
not know each other

§ ^ “ ZT' k"eW’ 3ppellant and Bums did

20
21
22
23
24
25
26
27
28

The car came to a stop against the curb across the street in front of
the Youth Uprising building. Burns was slumped in the seat Blood
was everywhere P.L. unsuccessfully attempted to pull Burns’s foot
from
£as.Pedal but was unable to do so, so she pulled the key
from the ignition. Tielee approached the car and told P L to keen
■ talking to Bums to see if he could hear her. Tielee told her appellam
was the shooter and had been taking drugs and was drinking.
Police were dispatched to the scene of the shooting. Burns was
taken to the hospital, where he later died of a gunshot wound to the
nfUh h" exPended bulIe* was found on the floor of the car in front
of the driver’s seat and a spent .40-^aliber casing was found in a
gutter across the street, indicating the weapon used was a
semiautomatic. No weapons were found in Burnses car.
Z.T. and P.L. gave written statements at the
2

scene, but they did not

Case 3:15-cv-05783-JD

1
2
3
4
5

6
7

8
9
10
11
.2
tr c
o <o
U •=

23 <+-6
c/o

12
13
14

o

Q 3
•E
3
tS
03
& ^
OO

15

16

T3 E

Mc 1t
D o
Z

Document 18

Filed 01/16/18

Page 3 of 13

say they knew the shooter. They were placed in different patrol cars
and taken to the police station for questioning, where they were
separately interviewed. Z.T. seemed antagonistic and scared and did
not want anyone to know she was at the police station. P.L. seemed
upset and withdrawn. Z.T. held back at first because she was
scared, but eventually she told police it was appellant who had shot
Bums. P.L. was afraid of retaliation if she identified the shooter,
and did not give appellant’s name at first. She eventually admitted
she knew the shooter and identified appellant. Both girls selected
appellant’s picture from a photographic lineup.
A few days after the shooting, officers approached appellant to
arrest him as he was leaving a movie theater. Appellant ran down a
ravine behind the theater, but was taken into custody after he tripped
and fell. He was wearing a diamond earring in his left ear and
officers found a set of gold grills and a cell phone in his pants
pocket. A second cell phone, later associated with appellant, was
found about 30 to 45 feet away. Police searched the home of
appellant’s girlfriend, who was with him at the time of his arrest,
and found a birth certificate, Social Security card, and an
identification card for the Youth Uprising center, all in appellant’s
name.
Cell phone records showed that calls were made from appellant’s
and Z.T.’s phones near the time of the murder that utilized the same
cell phone tower, suggesting the phones were in the same' area,
though other calls made from Z.T.’s phone during that time frame
utilized a different, nearby tower. The records also showed calls
were made from appellant’s cell phone to Z.T.’s cell phone that
same night after the shooting in which the caller from appellant’s
phone blocked the number. Calls were made from Z.T.’s phone to
2009lant S Ph°ne between 4:25 a'm’ and 6:11 a-m- on NovetT>ber 22,

17
18
19
20
21
22
23
24
25

26
27

28

P.L. told police she received a threatening call a couple of days after
the shooting from a woman with a high-pitched voice who said,
Bitch, you are going to die.” The voice sounded similar to one of
the bystanders who helped them at the scene after the shooting. P.L.
was 100 percent positive appellant was the shooter. She did not talk
to Tielee after the shooting.
Z.T. did not receive any threats, though appellant and other people

called her. She had not answered her cell phone because she did not
want to talk about what had happened. She liked appellant as a
friend and thought both he and Bums were nice people. Z.T. had
not spoken to Tielee since the shooting. She had no doubt appellant
was the shooter.
After giving an opening statement suggesting the evidence would
show appellant was not at the scene of the crime, defense counsel
called a single witness, DeAnna Ashorobi, who testified appellant
was a friend of her daughter’s and she had known him since he was
15 years old. Ashorobi had never heard of appellant being violent
and had never known him to carry a gun. She believed him to be a
“good kid,” mild mannered and respectful. However, she had not
heard appellant owned and carried guns; she had not heard he had
3

Case 3:15-cv-05783-JD Document 18

Filed 01/16/18 Page 4 of 13

irwolvemelrMVi Ti/L8^ With ? Tgl she had not heard of his
nnl ? \a t k!d"aPP,ng; she had not heard appellant’s father
and others held the kidnapping victim and fired shots at the victim’s

1
2

S'a Dle„",hLrVtehd TT™™ ,he vtoim;°a„d sSrhad'no?

eard apjDellant held the kidnapping victim at gunnoint and
fj)enfned her when he released her. If she had helrd^bout the
kidnappmg and gun possession, it would affect her opinion and she
would assume he was violent if he went to jail or prison fo? such
conduct. Ashorobi had heard about the current homicide but this
andn0h
hCr opini<?n because appellant had not been found guilty
someone ^nthehead ^
^ kind °fwho ^d

3
4

5
6
7

8

b1r"d **“

9

hS0reteinSednSfltt,nthe C°U? 8?nted aPPe,lant’s motion to relieve
ms retained trial attorney and substitute new retained counsel This
DrovTdeedfi nefW°tl0n f°" new trial> asserting the trial attorney had
provided ineffective assistance of counsel in several respects
including (1) presenting an opening statement promising analibi
tat nCVer ^aterializedi (2) calling Ashorobi as a^haracter
witness, knowing she would be impeached with highly prejudicial
have you heard” questions about prior criminal acts and possession
371
appell.ant; and (3) failing to object to CALCRIM No
thhd pfrtydmg COnsCIOUsness of Suilt and treats to a witness by a

10
11

.2

12

t: c
3

u

13

u9 42
15
._ U

14

a -g
w ‘C

15

«S

16

£ <+on o

£ tn

-o £

.2= J*t;

17

2

18

ZD o

19
20
21
22

a"d fo“"d

,

Tl?e
denied the motion- It stated it had some concerns
with the defense strategy of calling Ashorobi as a character witness
tmit hh t°Ve[ai ’ STe P0Sltive things came from her testimony in
“significantr? t0 Tanjze aPPfllant- And, though the court had
significant concerns and was “bothered” about the decision to
forward with an opening statement promising an alibi defense go
any
StimoTv bv'zT8 'm'L8111 °f the uCry Str0ng and believable
testimony by Z.T., which was corroborated by the nreliminarv
hearing testimony of P.L., and the jury’s verdict of secoS raS
oh4nrefdSlndaHb?dTfrderV t C°Urt n0ted if aPPeIIant testified and
ottered an alibi defense (as he apparently wished to do before his
trial attorney convinced him not to take the stand), he would have
gl^e^hcn^witnesses who" woul^have shown' th^Iubstance'of the

23
24
was

25
26

Thomas, 2014 WL 3366567, at *1-3 (footnote omitted).

27

28
4

Case 3:15-cv-05783-JD Document 18 Filed 01/16/18 Page 5 of 13

1
2

A district court may not grant a petition challenging a state conviction or sentence on the

3

basis of a-claim that was reviewed on the merits in state court unless the state court’s adjudication

4

of the claim: “(1) resulted in a decision that was contrary to, or involved an unreasonable

5

application of, clearly established Federal law, as determined by the Supreme Court of the United

6

States; or (2) resulted in a decision that was based on an unreasonable determination of the facts in

7

light of the evidence presented in the State court proceeding.” 28 U.S.C. § 2254(d). The first

8

prong applies both to questions of law and to mixed questions of law and fact, Williams v. Taylor,

9

529 U.S. 362, 407-09 (2000), while the second prong applies to decisions based on factual

10
11
.2.

STANDARD OF REVIEW

determinations, Miller-El v. Cockrell, 537 U.S. 322, 340 (2003).
A state court decision is “contrary to” Supreme Court authority only if “the state court

ti c
o <o

12

arrives at a conclusion opposite to that reached by [the Supreme] Court on a question of law or if

13

the state court decides a case differently than [the Supreme] Court has on a set of materially

•no

14

indistinguishable facts. ’ Williams, 529 U.S. at 412-13. A state court decision is an “unreasonable

15

application of’ Supreme Court authority if it correctly identifies the governing legal principle from

16

the Supreme Court s decisions but “unreasonably applies that principle to the facts of the

17

prisoner’s case.” Id. at 413. The federal court on habeas review may not issue the writ “simply

18

because that court concludes in its independent judgment that the relevant state-court decision

19

applied clearly established federal law erroneously or incorrectly.” Id. at 411. Rather, the

20

application must be “objectively unreasonable” to support granting the writ. Id. at 409.

&

oo

CJ
<4-

Q

Q
»
00 •E
203 *JT
J5Q
-o £
2 .cID
= t:

D o

2

21

Under Section 2254(d)(2), a state court decision “based on a factual determination will not

22

be overturned on factual grounds unless objectively unreasonable in light of the evidence

23

presented in the state-court proceeding.” See Miller-El, 537 U.S. at 340; see also Torres v.

24

Prunty, 223 F.3d 1103, 1107 (9th Cir. 2000). In conducting its analysis, the federal court must

25

presume the correctness of the state court’s factual findings, and the petitioner bears the burden of

26

rebutting that presumption by clear and convincing evidence. 28 U.S.C. § 2254(e)(1).

27

The state court decision to which § 2254(d) applies is the “last reasoned decision” of the

28

state court. See Ylst v. Numemaker, 501 U.S. 797, 803-04 (1991); Barker v. Fleming, 423 F.3d
5

Case 3:15-cv-05783-JD Document 18 Filed 01/16/18 Page 6 of 13

1085, 1091-92 (9th Cir. 2005). When there is no reasoned opinion from the highest state court to
2 II consider the petitioner’s claims, the Court looks to the last reasoned opinion. See Nunnemaker at
3

801-06; Shackleford v. Hubbard, 234 F.3d 1072, 1079 n.2 (9th Cir. 2000)!

In this case the Court
4 || looks to the opinion of the California Court of Appeal for the two claims in the petition.
5

As grounds for federal habeas relief, Thomas alleges that: (1) trial counsel was ineffective

6 || for failing to present alibi evidence as promised in his opening statement; and (2) trial counsel
7

ineffective by opening the door to damaging evidence placing Thomas’ character at issue.

8
9
10
11

was

INEFFECTIVE ASSISTANCE OF COUNSEL
Legal Standard
A claim of ineffective assistance of counsel is cognizable as a claim of denial of the Sixth
|| Amendment right to counsel, which guarantees not only assistance, but effective assistance of

12

counseL Strickland v. Washington, 466 U.S. 668, 686 (1984). The benchmark for judging any

13

claim of ineffectiveness must be whether counsel’s conduct so undermined the proper functioning

3 E

o £
U £
>

03

.2 (j
■i= 4on o

5 3
on •n

14 || of the adversarial process that the trial cannot be relied upon as having produced a just result. Id.
15

£ to

In order to prevail on a Sixth Amendment ineffectiveness of counsel claim, petitioner must

16 || establish two things. First, he must establish that counsel’s performance was deficient, i.e., that it
X> £

6 Jg
c C
D o

Z

17

fell below an “objective standard of reasonableness” under prevailing professional norms.

18 || Strickland, 466 U.S. at 687-88. Second, he must establish that he was prejudiced by counsel’s
19

deficient performance, i.e., that “there is a reasonable probability that, but for counsel’s

20

unprofessional errors, the result of the proceeding would have been different.” Id. at 694. “A

21

reasonable probability is a probability sufficient to undermine confidence in the outcome.” Id.

22

A “doubly” deferential judicial review is appropriate in analyzing ineffective assistance of

23

counsel claims under § 2254. See Cullen v. Pinholster, 563 U.S. 170, 202 (2011); Harringto n v.

24

Richter, 562 U.S. 86, 105 (2011) (same)._ The general rule of Strickland, i.e., to review a defense

25

counsel s effectiveness with great deference, gives the state courts greater leeway in reasonably

26

applying that rule, which in turn “translates to a narrower range of decisions that are objectively

27

unreasonable under AEDPA.” Cheney v. Washington, 614 F.3d 987, 995 (9th Cir. 2010) (citing

28

Yarborough v. Alvarado, 541 U.S. 652, 664 (2004)). When § 2254(d) applies, “the question is not
6

Case 3:15-cv-05783-JD Document 18 Filed 01/16/18 Page 7 of 13

1

whether counsel’s actions were reasonable. The question is whether there is any reasonable

2

argument that counsel satisfied Strickland’s deferential standard.” Harrington, 562 U.S. at 105.

3

See, e.g., Demirdjian v. Gipson, 832 F.3d 1060, 1072-74 (9th Cir. 2016) (rejecting claim that

4

counsel was ineffective by failing to challenge statements by prosecutor as either improper

5

comments on petitioner’s decision not to testify, or improper shifting of burden of proof to

6

defense, because there is reasonable argument that, because there was no prosecutorial error,

7

defense counsel’s decision to rebut prosecutor’s comments in closing argument rather than object

8

at trial was adequate).

9
10
11
.2

1 §

3115

12
13

So
±3 <+-

14

O t3

■c

15

Jo

16

"o E
& £

17

o

GO

B to

c t:

D o

2

18
19
20
21
22
23
24
25
26
27
28

Background
The California Court of Appeal set forth the relevant background for these two claims:
During the hearing on motions in limine, the prosecutor indicated he
had just learned about appellant’s participation in a kidnapping
orchestrated by appellant’s father .several months before the
shooting. The court granted the prosecutor’s motion to allow (1)
cross-examination of any character witness called by the defense
with “have you heard” questions relating to the kidnapping (see
People v. Marsh (1962) 58 Cal. 2d 732, 745 [it is “within the ambit
of proper cross-examination of a character witness to inquire, in
good faith, whether the witness has heard of specific misconduct of
the defendant inconsistent with the trait of character testified to on
direct”] ); and (2) extrinsic evidence of the kidnapping incident to
impeach appellant’s credibility should he testify {see People v.
Cadogan (2009) 173 Cal. App. 4th 1502, 1509 [past criminal
conduct involving moral turpitude that has some logical bearing on
veracity is admissible for impeachment]; People v. Zataray (1985)
173 Cal. App. 3d 390, 399—400 [kidnapping is crime of moral
turpitude admissible for impeachment purposes]).
At the beginning of the trial, defense counsel indicated he would
reserve his opening statement and present it at the close of the
prosecution’s case-in-chief. After the prosecution rested its case,
defense counsel gave the following opening statement: “Good
afternoon, everyone. I’m going to give you a brief opening
statement. You have heard a lot of evidence so far, but you haven’t
heard the whole case yet. My client is not guilty of any of these
charges. He is presumed innocent until all the evidence comes in.
And when all this evidence comes in, the People will not have met
their burden to prove beyond a reasonable doubt that Mr. Thomas is
the person that shot the victim in this case. The witness—it will
come out that the witnesses are not credible; that Mr. Thomas was
not present. They have to prove to you that Mr. Thomas was present
at the scene, hot in or about the area of the scene. He has to be
there, actually be the one doing the shooting. That’s not going to
pan out in this evidence. The charge here is murder in the first
degree. Someone did in fact from the evidence you know kill Alvin
7

Case 3:15-cv-05783-JD Document 18 Filed 01/16/18 Page 8 of 13

i
2
3
4
5
6
7
8
9
10
11
«

12

a= 1 13
15

<4^
00

o

Q

O

00

•E

14
15

£ to

16
TJ E

.3 J*

17

Z

18

c ^
D o

19
20
21
22
23
24
25
26
27
28

Bums, but it was not—the prosecution will not be able to show that
it was my client because he was elsewhere. He was not at the scene
ot the crime. That s what the evidence will show. Thank you.”
After giving this opening statement, defense counsel called
Ashorobi as a witness, who testified about appellant’s nonviolent
character on direct examination. Ashorobi was then asked a series of
have you heard’ questions during cross-examination regarding
appellant s involvement in the prior kidnapping, his possession of
guns and his involvement in a fight with a gang. She indicated she
had heard none of these things, but if they were proved they would
change her opinion about appellant’s character.
When Ashorobi s testimony was complete, defense counsel asked to
approach the bench and advised the court he did not want appellant
to testify as planned because he would be questioned by a “skilled
cross-examiner” and his testimony would likely be impeached with
evidence about the prior kidnapping. Defense counsel asked for ‘
more time to discuss the matter of testifying with appellant. Court
was adjourned for the day and the following morning, defense
counsel rested without calling any additional witnesses.
Thomas, 2014 WL 3366567, at *5.
Discussion
Alibi Evidence
Thomas first argues that trial counsel was ineffective for making an opening statement
where he indicated he would present alibi evidence, but then failed to

present such evidence. The

California Court of Appeal denied this claim.
Defense counsel’s opening statement suggested the jury would hear
evidence appellant was somewhere other than the scene of the crime
when Burns was shot. Apparently, counsel still believed appellant
would teshfy and present an alibi defense. But the reasons counsel
gave the court shortly after his decision to try to dissuade appellant
from taking the stand (the expertise of the prosecutor as a cross­
examiner and the prejudice that would result from impeachment
evidence regarding the kidnapping) were known from the outset of
the trial. We share the trial court’s concern about defense counsel’s
decision to suggest an alibi defense when it appears he should have
known at the time of the opening statement it would be improvident
for appellant to testify. FN 5. Ultimately, though, we need not
resolve whether counsel’s actions fell beyond the range of
reasonable trial tactics because any error in making the opening
statement was harmless. {Strickland, supra, 466 U.S. at pp 694695; Rodrigues, supra, 8 Cal. 4th at p. 1126 )
FN 5. In a declaration submitted with the motion for new
trial, appellant stated he and his trial attorney had agreed
before the trial began that appellant would testify, and the
issue was not revisited until the day counsel gave his
opening statement, when he urged appellant not to take the
8
!

Case 3:15-cv-05783-JD Document 18 Filed 01/16/18 Page 9 of 13

1
2
3
4
5
6
7
8
9
10
11
«
t: 'E

12

3 £H
O
v IS
•IS
on o

14

5 ts

15

00

■£

13

£ ■ to

JS
-a E
M 1

17

Z

18

= *:
D O

16

• 19
20
21
22
23
24
25
26
27
28

stand.
The decisi°n to forgo alibi testimony by appellant himself is not
challenged on appeal and appears reasonable in light of the potential
for impeachment with highly prejudicial information about the prior
kidnapping. There is no suggestion any other witness could have
given testimony supporting a persuasive alibi defense. Absent any
evidence of an alibi, the crucial issue for the jury to resolve was
as the shooterand P'L'
Credible when they identified appellant
The trial court, which presided over the entire case and observed the
demeanor of the witnesses firsthand, found Z.T. to be “as good or
better than any other witness I have ever seen. There were some
times when she cried on the witness stand. She did not seem to be
pandering her answers to one side or the other .... And when you
look at her answers what, at first, seemed to be inconsistent answers,
depending on who was asking the question, ultimately showed to be
quite consistent, that her testimony was consistent throughout front
to back, and as each attorney asked about a different aspect, her
answer might have changed because she was answering that
question. And ultimately it was clarified that at the time that the
shot was fired, she was looking down, but she recognized Mr.
Thomas’ voice, and Mr. Thomas[!] voice was not the voice that she
.ear.<% *or
f"lrs* f*me that day, but someone who she had a
significant amount of contact with in the months before that, a lot of
telephone contact. She didn’t seem to me to be siding with one side
or the other. She seemed to me to be a person who had positive
feelings toward Mr. Thomas, as well as positive feelings towards the
victim in this case. Her identification of Mr. Thomas was very
strong .... It was very certain. It was based on having known Mr.
Thomas for some period of time, having recognized him from a
distance away, having recognized him walking toward the vehicle
. . The court also noted P.L. “overwhelmingly corroborated” Z.T.’s
testimony in material respects. “The fact that there are two
percipient witnesses who had preexisting relationships with the
defendant who both affirmatively and positively and 100 percent
identified the defendant as the shooter, that’s very strong evidence
indeed. Finally, the court observed the identification was further
corroborated by cell phone records showing appellant was in the
general area of the shooting, by the gold grill found on his person at
the time of his arrest, and by his Youth Uprising membership card
that was found at his girlfriend’s house.
Substantial evidence supports the trial court’s determination Z.T.
^asac,redible witness= ^d we defer to that finding. (Taylor, supra,
162 Cal. App. 3d at p. 726.) Her persuasive testimony, corroborated
by the other evidence described by the trial court, identified
appellant as the shooter. Once the jury determined appellant was the
shooter, the jury s only realistic choices were first or second degree
murder. It convicted appellant of the lesser of these two offenses.
Though defense counsel’s opening statement alluded to an alibi
defense that was not ultimately presented, it focused more on the
credibility of prosecution witnesses and made no promise that any
particular defense witness would testify. It is not reasonably
9

Case 3:15-cv-05783-JD Document 18 Filed 01/16/18 Page 10 of 13

1
2
3

probable appellant would have secured an acquittal had defense
counsel refrained from making his opening statement or limited its
contents to an attack on witness credibility, even if such a strategy
would have been preferable in hindsight. (Strickland, supra, 466
U.S. at pp. 694-695.)
Thomas, 2014 WL 3366567, at *6-7.

4
The state court did not decide if counsel was deficient because, regardless, there was no
5
prejudice. This finding was not objectively unreasonable. Even assuming that counsel was
6
deficient in mentioning alibi evidence in the opening statement and then not following through
7
and presenting such evidence, there was substantial evidence demonstrating Thomas’ guilt. The
8
state court described the credible and extensive testimony of the witness, who knew Thomas, and
9
this testimony was corroborated by the other witness, who also had a preexisting relationship with
10
Thomas. In addition,: the cell phone records placed Thomas in the vicinity of the murder and show
11
that he called one of the witnesses around that time.
.2

t: c
3
o <o

U .•£

o CJ

S “o
5 o
•n
C/5

£ Q

•o
E
<D <D

12

while counsel’s decision to suggest an alibi defense mostly likely fell below prevailing
14
professional norms, Thomas cannot demonstrate prejudice. Thomas cannot meet his burden in
15
showing that had counsel not made this error, the result of the proceeding would have been
16
different. Had counsel not mentioned the ultimately never presented alibi defense, there was still

*2 JZ

17

Z

18

c t;
D o

The Court agrees with the findings of the trial court and California Court of Appeal that

13

substantial evidence of Thomas’ guilt as discussed above. Thomas has not demonstrated that the
state court decision was an unreasonable application of Strickland; therefore, this claim is denied.
19
Character Evidence
20
Thomas next argues that trial counsel was ineffective by calling Ashorobi, a character
21
witness who opened the door to damaging evidence of Thomas’ character. The California Court
22
of Appeal denied this claim.
23
24
25
26
27
28

Appellant contends defense counsel was ineffective in calling
Ashorobi as a character witness, knowing she would be crossexamined with a series of “have you heard” questions about a
“litany of unsavory behavior on appellant’s part.” The decision to
call a particular witness is generally a matter of trial tactics “unless
the decision results from unreasonable failure to investigate.”
(.People v. Bolin (1998) 18 Cal. 4th 297, 334.) The decision to call
Ashorobi does not appear to be the product of ignorance on the part
of defense counsel, who knew in advance she could be impeached
by the “have you heard” questions.
10

Case 3:15-cv-05783-JD Document 18 Filed 01/16/18 Page 11 of 13

1

Even assuming the tactical decision to call Ashorobi was
unreasonable, appellant has failed to demonstrate prejudice for the
reasons stated in the preceding section of this opinion. Given the
evidence presented, and the strength of Z.T.’s testimony in
particular, there was very little potential for a verdict other than first
or second degree murder. The jury chose the lesser of these options,
showing it was not unduly swayed by the prosecutor’s references to
the prior kidnapping and possession of firearms. The trial court
specifically instructed the jury it could not consider the prosecutor’s
questions for the truth of the matters asserted. Though, as appellant
notes, the prosecutor referred to this line of cross-examination
during closing argument, the jury was instructed the attorneys’
remarks during opening statement and closing argument were not
We presume the jury followed these admonitions.
evidence.
{People v. Coffman and Marlow (2004) 34 Cal. 4th 1, 83.)

2
3
4
5
6
7
8
9

Thomas, 2014 WL 3366567, at *7 (footnote omitted).
The state court did not find that counsel was deficient, and, even if the decision to call the

10

.2

t: c

11

character witness was deficient, there was no prejudice. This finding was not an unreasonable

12

application of Supreme Court authority. When applying § 2254(d), “the question is not whether

o 42
13
o ~
IS .
* u 14
•n
b? <o
S.2
15
on

£ to

counsel’s actions were reasonable. The question is whether there is any reasonable argument that
counsel satisfied Strickland-'s deferential standard.” Harrington, 562 U.S. at 105. There are
reasonable arguments in support of counsel’s decision to call the character witness. As discussed

16

above, there was substantial evidence of Thomas’ guilt. Once counsel decided not to have

£ J*

17

Thomas testify, it was a reasonable tactical decision to present some evidence in defense in light

Z.

18

of the damaging testimony of the witnesses. This Court must review trial counsel’s effectiveness

19

with great deference, and Thomas has failed to meet his burden in showing that the trial counsel

20

was deficient in calling Ashorobi to testify as a character witness.

oo
-a E

c t:
D o

Even assuming that trial counsel was deficient, Thomas cannot demonstrate prejudice. For

21
22

the same reasons noted above, there was substantial evidence of Thomas’ guilt. Thomas has not

23

shown that had trial counsel not presented the character witness, a reasonable probability that the

24

result of the proceeding would have been different exists. For all these reasons, this claim is

25

denied.

26
27
28
11

Case 3:15-cv-05783-JD Document 18 Filed 01/16/18 Page 12 of 13

CERTIFICATE OF APPEALABILITY

1

The federal rules governing habeas cases brought by state prisoners require a district court

2
3

that issues an order denying a habeas petition to either grant or deny therein a certificate of

4

appealability. See. Rules Governing § 2254 Cases, Rule 11(a).

5
6

A judge shall grant a certificate of appealability “only if the applicant has .made a
substantial showing of the denial of a constitutional right,” 28 U.S.C. § 2253(c)(2), and the

7
8
9

«

certificate must indicate which issues satisfy this standard. Id. § 2253(c)(3). “Where a district
court has rejected the constitutional claims on the merits, the showing required to satisfy § 2253(c)

10

is straightforward: [t]he petitioner must demonstrate that reasonable jurists would find the district

11

court’s assessment of the constitutional claims debatable or wrong.” Slack v. McDaniel, 529 U.S.

12

473, 484 (2000).

3 E

<5^
z, n 13
•c £
C/3

Here, petitioner has made no showing warranting a certificate and so none is granted.

14

o

O
2
CO $-*
3 -S
2 3

D o
Z

1. For the foregoing reasons, the petition for writ of habeas corpus is DENIED. A

16

T3 E

£ 1'
c e

CONCLUSION

15

17
18
19
20
21

Certificate of Appealability is DENIED. See Rule 11(a) of the Rules Governing Section 2254
Cases.
2. The Clerk shall close this case.
IT IS SO ORDERED.
Dated: January 16, 2018

22
23

JAMES DONATO
United Spates District Judge

24
25
26
27
28
12

Case 3:15-cv-05783-JD Document 18 Filed 01/16/18 Page 13 of 13

1

UNITED STATES DISTRICT COURT

2

NORTHERN DISTRICT OF CALIFORNIA

3
4

RONALD DEMETRIUS THOMAS

Case No. 15-cv-05783-JD

Plaintiff,
5
v.

CERTIFICATE OF SERVICE

6
7

WILLIAM MUNIZ,
Defendant.

8
9
10

I, the undersigned, hereby certify that I am an employee in the Office of the Clerk, U.S.
District Court, Northern District of California.

11
.5

12

o «o
O =

13

t: c
■4—*

C3

.a o
£3

to

5

14

o

CO ’C
<D •*->
£2 CO

15

That on January 16, 2018,1 SERVED a true and correct copy(ies) of the attached, by
placing said copy(ies) in a postage paid envelope addressed to the person(s) hereinafter listed, by
depositing said envelope in the U.S. Mail, or by placing said copy(ies) into an inter-office delivery
receptacle located in the Clerk's office.

16
"o
E
u <u

.ti jz

17

Z

18

c t;
D o

Ronald Demetrius Thomas ID: AN0774
Salinas Valley State Prison-Facility C 71266
P.O.Box 1050
Soledad, CA 93960

19
20
21

Dated: January 16, 2018

22
23

Susan Y. Soong
Clerk, United States District Court

24
25
26
. 27

By:
LISA{ P? CLARK, Deputy Clerk to the
Honorable JAMES DONATO

28
13

Case 3:15-cv-05783-JD Document 19 Filed 01/16/18 Page l ot 2

1
2
3
4

UNITED STATES DISTRICT COURT

5

NORTHERN DISTRICT OF CALIFORNIA

6
7

RONALD DEMETRIUS THOMAS,
Petitioner,

8
9
10
11
«
t c
.a U

14

5 ts

15

CO

'u,

B to

I5

16

T3 E
1)

ID

.=S _C

17

Z

18

c t:
D O

JUDGMENT

V.

WILLIAM MUNIZ,
Respondent.

12

a i15 13
is 4oo o

Case No. 15-cv-05783-JD

19

20
21
22
23
24
25
26
27
28

The Court having.entered a ruling today denying the petition for a writ of habeas corpus,
judgment is entered in favor of respondent and against petitioner. Petitioner shall obtain no relief
by way of his petition.
IT IS SO ORDERED.
Dated: January 16, 2018

JAMES D0NATO
United Stores District Judge

APPENDIX C

COPY
Filed 7/10/14

NOT TO BE PUBLISHED IN OFFICIAL REPORTS
forUpurp>c^<eSeo^

^as9rio? h<fjn'r

f| 11

IN THE COURT OF APPEAL OF THE STATE OF CALIFORNIA
FIRST APPELLATE DISTRICT
Court of Appeal First Appellate District

DIVISION FIVE

JUL 1 0 2014

THE PEOPLE,
Plaintiff and Respondent,

Diana Herbert, Clerk

A137389

V.

RONALD D. THOMAS,

0*

Deputy ClerjC

(Alameda County
Super. Ct. No. 164261)

Defendant and Appellant.

Appellant Ronald D. Thomas was tried before a jury and convicted of second
degree murder with special allegations based on his
use of a firearm. (Pen. Code, §§ 187,
12022.5, subd. (a), 12022.53, subds. (b), (c) & (d).)1
He contends the judgment must be
reversed because his trial attorney provided ineffective assi
assistance of counsel in several
respects. He also argues the trial court erred in giving CALCRIM No. 371,
regarding
consciousness of guilt based on efforts to discourage testimony, and suggests the
cumulative effect of the trial errors in this
case require reversal even if they were not
individually prejudicial. We affirm.
I. FACTS AND PROCEDURAL HISTORY
Alvin Bums was fatally shot on the night of November 20, 2009. The Alameda
County District Attorney filed an information charging appellant with murder (§187) and
alleging he had personally and intentionally discharged a fireann and caused great bodily

Further statutory references are to the Penal Code
1

unless otherwise indicated.

The car came to a stop against the curb across the street, in front of the Youth
Uprising building. Bums was slumped in the seat. Blood was everywhere, P.L.
unsuccessfully attempted to pull Bums’s foot from the gas pedal but was unable to do so,
so she pulled the key from the ignition. Tielee approached the car and told P.L. to keep
talking to Bums to see if he could hear her. Tielee told her appellant was the shooter and
had been taking drugs and was drinking
Police were dispatched to the scene of the shooting. Bums was taken to the
hospital, where he later died of a gunshot wound to the head. An expended bullet was
found on the floor of the car in front of the driver s seat and a spent .40-caliber casing
was found in a gutter across the street, indicating the weapon used was a semiautomatic.
No weapons were found in Bums’s car.
Z.T. and P.L. gave written statements at the scene, but they did not say they knew
the shooter. They were placed in different patrol cars and taken to the police station for
questioning, where they were separately interviewed. .Z.T. seemed antagonistic and
scared and'did not want anyone to know she was at the police station. P.L. seemed upset
and withdrawn. Z.T. held back at first because she was scared, but eventually she told
police it was appellant who had shot Bums. P.L. was afraid of retaliation if she identified
the shooter, and did not give appellant’s name at’first. She eventually admitted she knew
the shooter and identified appellant. Both girls selected appellant’s picture from a
photographic lineup.
A few days after the shooting, officers approached appellant to arrest him as he
was leaving a movie theater. Appellant ran down a ravine behind the theater, but was
taken into custody after he tripped and fell. He was wearing a diamond earring in his left
ear and officers found a set of gold grills and a cell phone in his pants pocket. A second
cell phone, later associated with appellant, was found about 30 to 45 feet away. Police
searched the home of appellant’s girlfriend, who was with him at the time of his arrest,
and found a birth certificate, Social Security card, and an identification card for the Youth
Uprising center, all in appellant’s name.

3

possession, it would affect her opinion and she would
jail or prison for such conduct. Ashorobi had he

assume he was violent if he went to

ard about the current homicide, but this

did not alter her opinion because appellant had

not been found guilty and she did not see
him as the kind of person who would shoot someone
in the head.
The jury was instructed on first and second degree
murder and the firearm
enhancement allegations. It acquitted appellant of first degree murder, convicted him of
second degree murder, and found the enhancement allegations to be t
rue.
Pnor to sentencing, the court granted appellant’s motion to relieve his retained
trial attorney and substitute new retained counsel.
This attorney filed a motion for
.
,
-new
trial, asserting
the trial attorney had provided ineffective assistance of counsel in several
respects, including (1) presenting an opening statement p

romismg an alibi defense that
character witness, knowing she would be
impeached with highly prejudicial “have you heard” questions about prior criminal acts
never materialized; (2) calling Ashorobi as a

an possession of fireaims by appellant; and (3) failing to object to CALCRIM No 371
regarding consciousness of guilt and threats to a witness by a third party 3
The trial court denied the moti on.

It stated it had some concerns with the defense
strategy of calling Ashorobi as a character witness, but that overall, some positive things
came from her testimony in that she tended humanize appellant. And, tiiough the court
nad significant concerns” and was “bothered”

about the decision to go forward with an
opening statement promising an alibi defense, any enor was harmless in light of the very
strong and believable testimony by Z.T., which was conoborated by the preliminaiy
earing testimony of P.L., and the jury’s verdict of second, rather than first deg
murder. The court noted if appellant testified and offered

ree

an alibi defense (as he

apparently wished to do before his trial

attorney convinced him not to take the stand), he
would have been iimpeached by pnor statements to the police as well
as prosecution

7hrc aI,eged bm are n°*«« *>

statements, the failure to develop evidence regarding'ThT

5

^ Tidee P’S

difficult, tactical decisi ons

in the harsh light of hindsight
(Ibid.) If the record on
appeal does not shed light on why counsel acted or fail
ed to act, we reject a claim of
meffective assistance unless counsel was asked for an
explanation and failed to provide
one or there could be no reasonable
explanation. (People v. Mendoza Tello (1997) 15
Cal.4th 264, 266.)
55 5 55

Because a defendant must establish both i
incompetence and prejudice, a court need
not decide the issue of counsel
’s alleged deficiencies before decid
ing if prejudice
occurred. (People v. Rodrigues (1994) 8 Cal.4th 1060,
1126 (Rodrigues).) In assessing
prejudice, a reasonable probability that the
result would have been different is a
probability sufficient to undermine
confidence in the outcome, that is, “whether counsel’s
deficient performance
renders ^ result of the trial unreliable
or the proceeding
fundamentally unfair.” (Lockhart
v- Fretwell (1993) 506 U.S. 364, 372 )
dam of meffective assistance of counsel may be raised in
a motion for new
trial under section 1181, even though it is
r
not one °f foe sfafu^jy enumerated grounds
(People v. Callahan (2004) 124 CaI.App.4th 198, 209 {Callahan)) When, as here, the '
trial court has denied
a motion for new trial based on
an ineffective assistance claim , we
apply the standard of review applicable to
mixed questions of law and fact, upholding the
trial court’s factual findings to the
reviewing de
extent they are supported by substantial
evidence but
reviewing de novo the ultimate question of whether the
facts established demonstrate a
violation of the right to effective counsel.
{People v. Taylor (1984) 162 Cal.App.3d 720,
724-725 (Taylor).)4

grant,ng a motion for new trial based on meffetiVe a
applicable to orders
motion for new trial on statutory grounds not imnhcat
“ of comsel or denying a
People v. LighUey (2012) 54 Cal.4th 668 729 2'?S lCOnSbtuti^ right. (See
demal of motion for new trial based nn va •
^
a^use °f discretion standard to
Cal-4th 1250, 1262 (abuseof
^ (2004> 33
different considerations mav annlv in nrr-w. a__ : /°r order panting new trial motion;
224, fii. 7
review required of order
implicated].)
7

not-the prosecution will not be able to show that it was
elsewhere. He was not at the scene of the crime.
Thank you.”

my client because he was

That’s what the evidence will show.

After giving this opening statement, defense counsel called Ashorobi
i as a witness,
who testified about appellant’s nonviolent character on direct examinati
on. Ashorobi was
then asked a series of “have you heard”
questions during cross-examination regarding
appellant’s involvement in the prior kidnapping, his possession of guns, and his
mvolvemem m a fight with a gang. She indicated she had heard none of these things but
>f they were proved they would change her opmion about appellant’s character.
When Ashorobi ’s testimony was complete, defense counsel asked to

approach the .
not want appellant to testify as planned because he
would be questioned by a “skilled cross -examiner”
and his testimony would likely be
impeached with evidence about the prior kidnapping. Defense counsel asked for more
bench and advised the court he did

time to discuss the matter of testifying with appellant,
and the following morning, defense counsel
witnesses.

Court was adjourned for the day

rested without calling any additional

3‘ OggSiBg Statement Promising Alibi Defense
Appellant argues his trial attorney was ineffective in

making an opening statement
Case law has recognized the failure of
counsel to produce evidence promised to the jmy during opening statement may support
in which he promised to present an alibi defense.

a claim of meffeefiveness of counsel. (McAleese v. Mazurkiemcz

(3d Cir. 1993) 1 F.3d
g such a failure to produce promised evidence
ineffective is that when counsel primes the jury to hear a different
version of the events
from what he ultimately presents , one
may infer that reasonable jurors would think the
witnesses to which counsel refened in his opening statement were unwilling or unable to
159, 166.) “The rationale for holdin

deliver the testimony he promised.”

(Id. atpp. 166-167; see People v. Corona (1978) 80

Cal.App.3d 684, 725.) That said , an
attorney may have valid tactical reasons for
changing strategy during trial, and promising certain evidence during opening statement
9

answers what, at first, seemed to be inconsistent answers, depending
on who was asking
the question, ultimately showed to be quite consistent, that her testimon
y was consistent
throughout, front to back, and as each attorney asked about a different aspect, her answer
might have changed because she was

answering that question. And ultimately it was
clarified that at the time that the shot was fired, she was looking down, but she
recognized Mr. Thomas ’ voice, and Mr. Thomasf] voice was not the voice that she heard
for the first time that day, but someone who she had a
significant amount of contact with
m the months before that, a lot of telephone contact,
She didn t seem to me to be siding
with one side or the other. She seemed to me
to be a person who had positive feelings
toward Mr. Thomas, as well as positive feehngs towards the victim in this case. Her
identification of Mr. Thomas

was very strong. ... It was very certain. It was based on
having known Mr. Thomas for
some penod of time, having recognized him from a
distance away, having recognized him walking toward the vehicle ...” The court also
noted P.L. “overwhelmingly corroborated” Z.T.’s testimony in material respects. “The
fact that there are two percipient witnesses who had preexisting relationships with the
defendant who both affirmatively and positively and 100 percent identified the defendant
as the shooter, that's very strong evidence indeed.” Finally, the court observed the
identification was further coiroborated by cell phone records showing appellant was in
t e general area of the shooting, by the gold grill found on his person at the time of his
arrest, and by his Youth Uprising membership card that was found at hi
s girlfriend’s
house.
Substantial evidence supports the trial
court s determination Z.T. was a credible
witness, and we defer to that finding. (Taylor, supra, 162 Cal.App.3d
at p. 726.) Her
persuasive testimony, coiroborated by the other evidence described by the trial
court,
identified appellant as the shooter. Once the jury determined appellant was the shooter,
the jury’s only realistic choices were first or second degree murder. It convicted
appellant of the lesser of these two offenses.
Though defense counsel’s opening statement alluded to
not ultimately presented, it focused more

an alibi defense that was
on the credibility of prosecution witnesses and
11

attorneys remarks during opening statement
We presume the jury followed these

and closing argument were not evidence,

admonitions. (People v. Coffman and Marlow

(2004) 34 Cal.4th 1, 83.)

5‘ Mure_to_Qbiect to
The third instance of alleged ineffective assi
assistance is based on trial counsel’s
failure to object to hears
ayStatementSOTa ^cording of the identification
s made by Z.T.
and P.L. during the photographic lineups at the police station
• In particular, appellant
complains his trial counsel did not object to
a conversation between the witnesses, their •
“caretaker,” and the detecti
ves regarding the need to keep secret the witnesses' locations.
the phone calls made to Z.T.’s
cell phone from appellant’s, what to do i
m case of future
threats, and promises the witnesses would be protected.
The recording was admitted because i, contained pnor consistent sta.em
ents under
under Evidence Code section 1238
Defense counsel did not object to the
recording and stated he believed the discussi
about the witnesses’ safety was duplicative of evidence the jury had already heard on
regarding their fears. The court ultimately interposed its
Code section 352 and stopped the playing of the recordi own objection under Evidence
Evidence Code section 1236 and prior identifications

court “ starfPd n • * •
there were long
w..III

u
b
f“

mg Partway through because the
"*
^^
‘° [,he “«*]
were
^ °f ** POli“ <"** - very much of die

sses talking, which were not very probative of any of the issues in the case
Although some of die material excluded by the court might have been relevant for
the n nhearsay purpose of showing the effect of the police officers
’ statements on the
witnesses and their credibility when they testified,
decision to cut short the evidence, it would have ’ we assume, based on the court’s
sustained a defense objection under
Evidence Code section 352. But for the
same reason defense counsel decided not to
object, we conclude any deficiency in failing to do so was harmless
• To the extent the
conversations showed Z.T. and P.L.

-—..

T, about staying hidden and
13

-*■* v
reporting any threats,

didn’t, I don’t know, Ultimately you are going to be the judges of the facts and win make
these decisions.' But at this point you should consider that
evidence in evaluating the
credibility of the withess only. You can’t hold it at this
point against the defendant unless
you fust find that he either made the threats or
authorized the threats.”
At the close of the case, the court gave a version of CALCRIM No 171
the suppression or fabrication of evidence and consciousness of guilt- “If fte JT*

may show that he
an

mony, or conceal or destroy evidence or

discouraged someone fr

aware of
was present and knew about that conduct or if not

efense counsel objected to the first paragraph of CALCRIM N
evidence had been presented to show appellant tried to hid
anyone from testifying. The court indicated the j

°- 371, arguing no
e evidence or discourage

ury could conclude appellant attempted
a cell phone when he was arrested, and, while the
evidence was “ on the weak side,” it could also determine the calls made from
appellant’s
phone to Z.T. ’s phone after the shooting
were efforts to discourage her from
cooperating
with the police. Defense counsel did not
object to the second paragraph of the
instruction, regarding threats by third parties, b
ecause evidence of one third-party threat
had been presented and the instruction “
set[ J the bar kind of high for the prosecution”
with respect to linking that threat to
appellant.
The court did not err in giving CALCRIM No. 371. “A trial
court properly gives
consciousness of guilt instructions where there i
is some evidence in the record that, if
believed by the jury, would sufficient!
y support the inference suggested in the
to hide evidence by discarding

15

NEEDHAM, J.

We concur.

JONES, P.J.

SIMONS, J.

(A 1373 89)

i

17

united states court of appeals

FILED

FOR THE NINTH CIRCUIT

MAY 14 2019

RONALD DEMETRIUS THOMAS,
Petitioner-Appellant,
v.
WILLIAM MUNIZ, Warden,

MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

No. 18-15277
D.C. No. 3:15-cv-05783-JD
Northern District of California,
San Francisco
ORDER

Respondent-Appellee.
Befoie. Peter L. Shaw, Appellate Commissioner.
Appellant’s motion for appointment of counsel (Docket Entry No. 8) in this
28 U.S.C. § 2254 appeal is granted. See 18 U.S.C. § 3006A(a)(2)(B); Weygandt v.
Look, 718 F.2d 952, 954 (9th Cir. 1983). Counsel will be appointed by separate
order.
The Clerk shall electronically serve this order on the appointing authority for
the U.S. District Court for the Northern District of California, who will locate
appointed counsel. The appointing authority shall send notification of the
address, and telephone number of appointed counsel to the Clerk of this

name,

court at

counselappointments@ca9.uscourts.gov within 14 days of locating counsel.
The opening brief and excerpts of record are due July 25, 2019; the
answering brief is due August 26,2019; and the optional reply brief is due within
21 days after service of the answering brief.

Additional material
from this filing is
available in the
Clerk's Office.

